            ACQUISITION MANAGEMENT OF THE GLOBAL
                   TRANSPORTATION NETWORK


Report No. D-2001-168                          August 2, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
GTN                   Global Transportation Network
USTRANSCOM            U.S. Transportation Command
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
                      Office of the Inspector General, DoD
Report No. D-2001-168                                                  August 2, 2001
  (Project No. D2001AL-0072)

    Acquisition Management of the Global Transportation Network

                               Executive Summary

Introduction. This report discusses the acquisition management of the Global
Transportation Network by the U.S. Transportation Command. This report is one in a
series of audit reports addressing DoD acquisition management of information
technology systems.

The Global Transportation Network is a central database system that augments the
business process of the U.S. Transportation Command for managing and controlling
in-transit assets. In addition, the Global Transportation Network allows more than
6,000 registered users to monitor movements of resources affecting the readiness of
missions. Since achieving initial operating capability in April 1997, the Global
Transportation Network processes more than 2 million transactions per day.

The Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) designated the Global Transportation Network as a Major Automated
Information System (Acquisition Category IAM). The U.S. Transportation Command
funds Global Transportation Network development, deployment, and operations and
maintenance with its Transportation Working Capital Fund. Through FY 2005, Global
Transportation Network costs will amount to $300 million. In addition, $211 million is
programmed for FY 2002 through FY 2007 for system modernization.

Objective. The overall audit objective was to evaluate the acquisition management of
the Global Transportation Network. Specifically, the audit determined whether the
system was being cost-effectively acquired, monitored, tested, and prepared for
deployment and system life-cycle support in accordance with DoD Directive 5000.1,
“Defense Acquisition,” October 23, 2000, and DoD Directive 5200.28, “Security
Requirements for Automated Information Systems (AISs),” March 21, 1988. We also
evaluated the management control program related to the objective. See Appendix A
for a discussion of the audit scope and methodology and the review of the management
control program.

Results. The U.S. Transportation Command cost-effectively acquired, monitored,
tested, and prepared the Global Transportation Network for deployment and system
life-cycle support in compliance with Office of Management and Budget and DoD
guidance. It was able to obtain an information technology system that augmented its
mission-essential and mission-critical business processes as well as the needs of its
customers within cost, schedule, and performance baselines. Further, the U.S.
Transportation Command’s management controls were adequate in that we identified no
material management control weaknesses in its acquisition of the Global Transportation
System.

Management Comments. We provided a draft of this report on June 18, 2001.
Because this report contains no recommendations, no written response to this report
was required, and none was received.




                                          ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      2

Finding
     Acquisition Management of the Global Transportation Network   3

Appendixes
     A. Audit Process
          Scope                                                     7
          Methodology                                               8
          Management Control Program Review                         9
          Prior Coverage                                            9
     B. Mandatory Guidance                                         10
     C. Report Distribution                                        12
Background
           Global Transportation Network. The Global Transportation Network (GTN) is
           a U.S. Transportation Command (USTRANSCOM) information technology
           investment that augments the USTRANSCOM business process for managing and
           controlling in-transit assets. Further, it allows authorized users to monitor
           passengers, patients, forces, and cargo. The GTN receives and stores logistics
           data from more than 50 source systems with interface links to more than
           100 secondary systems. In addition, GTN passes data to the Global Combat
           Support System, the Joint Total Asset Visibility System, and the Joint Operation
           Planning and Execution System. The GTN processes more than 2 million
           transactions per day, with data access to more than 6,000 registered users. The
           GTN achieved initial operating capability in April 1997.

           System Configuration. The GTN is a central database system that is
           configured with web-based server access. Authorized users extract information
           from the GTN database and display it on desktop monitors or notebook
           computer screens. The GTN does not create new information from stored data.
           The classified and unclassified database servers reside at Scott Air Force Base,
           Illinois with back-ups at Robins Air Force Base, Georgia. Access to the
           classified servers is through the Secret Internet Protocol Router Network.1

           Oversight and Management. The Assistant Secretary of Defense (Command,
           Control, Communication, and Intelligence) (ASD(C3I)) designated GTN as an
           acquisition category IAM Major Automated Information System.2 The
           ASD(C3I) is also the milestone decision authority for the acquisition. Executive
           agent responsibility for GTN was assigned to the Air Force, and program
           management was assigned to the Chief Information Officer, USTRANSCOM.
           Lockheed Martin Mission Systems performs system integration, and the Program
           Management Office and USTRANSCOM perform information security services
           with support from MITRE Corporation. It should be noted that USTRANSCOM
           was recognized by the National Security Agency for excellence in the field of
           information system security. In 1998, USTRANSCOM received the Frank B.
           Rowlett Award for organizational achievement.

           Funding. The USTRANSCOM funds GTN development, deployment, and
           operation and maintenance with its Transportation Working Capital Fund.
           Through FY 2005, GTN costs will amount to $300 million. In addition,
           $211 million is programmed for FY 2002 through FY 2007 for GTN
           modernization.


1
    The Secret Internet Protocol Router Network is the DoD wide area network for transferring classified
    information between computer systems.
2
    Programs are defined as Acquisition Category IA automated information systems if costs for any single
    year exceed $32 million (FY 2000 constant dollars), total program cost exceeds $126 million, total life-
    cycle costs exceed $378 million, or if the Assistant Secretary of Defense (Command, Control,
    Communication, and Intelligence) designates them as Acquisition Category IA systems.


                                                       1
Objective
    The overall audit objective was to evaluate the acquisition management of GTN.
    Specifically, the audit determined whether the system was being cost-effectively
    acquired, monitored, tested, and prepared for deployment and system life-cycle
    support in accordance with DoD Directive 5000.1, “Defense Acquisition,”
    October 23, 2000, and DoD Directive 5200.28, “Security Requirements for
    Automated Information Systems (AISs),” March 21, 1988. We also evaluated
    the management control program related to the objective. See Appendix A for a
    discussion of the audit scope and methodology and the review of the
    management control program.




                                       2
           Acquisition Management of the Global
           Transportation Network
           The U.S. Transportation Command cost-effectively acquired, monitored,
           tested, and prepared GTN for deployment and system life-cycle support
           in compliance with Office of Management and Budget and DoD
           guidance. This condition occurred because the GTN Program
           Management Office at the U.S. Transportation Command managed
           acquisition risks and applied management controls for the information
           technology investment. Further, the Assistant Secretary of Defense
           (Command, Control, Communications, and Intelligence) participated in
           management decisions affecting the investment’s outcome. As a result,
           the U.S. Transportation Command obtained an information technology
           system that augmented its mission-essential and mission-critical business
           processes and the needs of its customers within cost, schedule, and
           performance baselines.

Mandatory Guidance
    The Office of Management and Budget and the DoD provide managers with
    guidance for acquiring information technology investments and safeguarding
    information. Risks are mitigated when program offices comply with guidance,
    policies, and procedures. Management controls are also implemented for cost,
    schedule, performance, and information security. Appendix B describes the
    guidance as it relates to the GTN acquisition.

Risk Management and Management Controls
    The USTRANSCOM deployed an operationally effective and suitable GTN by
    managing system acquisition risks and applying management controls. In
    compliance with Office of Management and Budget and DoD guidance,
    USTRANSCOM:
           • involved users and testers,
           • provided funding stability for the investment,
           • staffed the acquisition with trained and experienced personnel,
           • developed and operated a system prototype,
           • applied and monitored security controls throughout the system’s life
              cycle, and
           • monitored the efficiency and effectiveness of program progress and
              results.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) participated in management decisions affecting the information
    technology investment’s outcome.


                                       3
           User and Tester Involvement. The GTN was a joint development and
           deployment effort within USTRANSCOM. Requirements were compiled and
           prioritized by the Directorate of Operations and Logistics. The requirements
           were also organized and refined by the Program Management Office and
           functional integrated product teams to determine best solutions. Further,
           planning and execution of the GTN test program was a combined effort of the
           Program Management Office, the contractors, the Air Force Operational Test
           and Evaluation Center, the Joint Interoperability Test Command, and the Air
           Force Information Warfare Center. As a result of involvement by system
           stakeholders, USTRANSCOM deployed an information technology system that
           satisfied operational requirements and specifications.

           Funding Stability. Stable funding allowed the GTN system acquisition to
           progress without delays. Beginning in FY 2000 and extending through
           FY 2002, more than 39 percent of the capital budget for USTRANSCOM for
           externally developed software was budgeted for GTN. As a result of this
           financial commitment, GTN customers could depend on system improvements
           and enhancements.

           Trained and Experienced Acquisition Personnel. The USTRANSCOM staffed
           the GTN Program Management Office with a trained and experienced workforce.
           Of the 20 individuals assigned to the GTN Program Management Office, 10 had
           either been certified as acquisition professionals3 or had completed training to
           satisfy certification requirements. Further, the Program Management Office
           requested that USTRANSCOM expand the number of positions requiring
           certification. The actions taken by the Program Management Office enabled the
           GTN to obtain and sustain a highly qualified acquisition workforce.

           Prototypes. The USTRANSCOM benefited from lessons learned from GTN
           prototype developments and deployments. The first GTN prototype, developed
           in 1990, reported information extracted from multiple database systems. When
           the GTN prototype was deployed in Southwest Asia for Operation Desert
           Shield, developers discovered that the prototype experienced technical problems
           when transferring and managing large volumes of data. As a result, a second
           prototype was developed during 1993 and 1994. This second prototype
           streamlined the data-gathering process by periodically receiving data from
           multiple sources and storing it in a central database for extraction by authorized
           users. Developers used the prototype to refine GTN requirements, determine
           technical capabilities needed to deliver requirements, and obtain user feedback.
           System prototyping enabled users and personnel in the Program Management
           Office to have a common understanding of business process requirements and an
           appreciation of technology alternatives and report presentations before the
           information technology investment proceeded to full-scale development.




3
    DoD issues Acquisition Professional Development Program Certifications to individuals meeting
    education, training, and experience standards in accordance with DoD Directive 5000.52-M,
    “Acquisition Career Development Program,” November 22, 1995.


                                                    4
Information Security and Data Integrity. In October 2000, after complying
with DoD guidance for information technology system certification and
accreditation, USTRANSCOM granted GTN an information security approval
to operate. Further, USTRANSCOM took additional steps to monitor the
effectiveness and reliability of GTN information.

        Security Effectiveness. When the Program Management Office
submitted the GTN for information security accreditation, it requested a 1 year
rather than a 3 year approval to operate. Despite quarterly Security Working
Group meetings and tools installed for monitoring system security, the GTN
Program Management Office believed that certification and accreditation would
not be valid beyond 12 months due to the rapid rate that information technology
changes. As a result, USTRANSCOM required an analysis of GTN security
controls to be conducted each year to determine the need for recertification and
reaccreditation as a condition for approval to operate.

        Data Reliability. The GTN depends on reliable feeder system
information for system effectiveness. Untimely and inaccurate data can
compromise the quality of GTN information. Recognizing this vulnerability,
the Program Management Office implemented edits for validating data and
maintains daily metrics for monitoring rejection rates. However, edits cannot
entirely eliminate invalid data. Untimely and inaccurate information can still
populate the database.

Monitoring Program Progress and Results. The Program Management Office
continually monitors program progress and results for the GTN system
acquisition. By translating system requirements to system products and linking
documentation to planning and budgeting cycles for life-cycle estimates, the
Program Management Office developed baselines for measuring cost, schedule,
and performance effectiveness and efficiency. As demonstrated by the quarterly
Defense Acquisition Executive Summaries and monthly progress reports, the
Program Management Office has integrated cost, schedule, and performance
management controls into the acquisition process.

Office of Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Oversight. From reviews of program
status reports and documents, briefings, and budget submissions, the ASD(C3I)
monitored GTN program progress and results. Also, the ASD(C3I) offered
constructive suggestions when USTRANSCOM coordinated GTN program
decisions. Although the USTRANSCOM initially programmed the GTN
modernization as a major modification to the existing system, the ASD(C3I)
believed the documentation supporting the modernization could qualify the GTN
as a new information technology investment.




                                    5
           After discussions and briefings, the ASD(C3I) and USTRANSCOM jointly
           agreed to ask for additional review by the Under Secretary of Defense
           (Comptroller)4. The Comptroller determined that the modernization was a new
           acquisition, and USTRANSCOM revised its FY 2002 budget submission to
           reflect the change.

Conclusion
           USTRANSCOM cost-effectively acquired, monitored, tested, and prepared
           GTN for deployment and system life-cycle support by managing risks and
           applying management controls in compliance with Office of Management and
           Budget and DoD guidance. As a result, USTRANSCOM can better plan and
           manage movements of resources to and from areas of national and international
           interests and GTN authorized users can better monitor movements of resources
           affecting the readiness of missions. Therefore, because the GTN information
           technology investment met user requirements within cost, schedule, and
           performance baselines, no report recommendations are being made.




4
    DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” August 2000, requires that DoD
    Components coordinate new starts for system acquisitions with the Office of Under Secretary of
    Defense (Comptroller).


                                                  6
Appendix A. Audit Process

Scope
    Work Performed. We conducted this program audit from January through
    May 2001 and reviewed documentation dated from June 1992 through
    May 2001. To accomplish the audit objective, we:
          • Interviewed officials and obtained documentation from the offices of
             ASD(C3I), the Air Force Program Executive Office for Command
             and Control and Combat Support Systems, Headquarters
             USTRANSCOM, the GTN Program Management Office, and
             contractor personnel.
          • Reviewed available documents related to program requirements,
             definition, assessments, and development; decision reviews; program
             status reporting; information system security; and oversight.
          • Evaluated the adequacy of management controls related to the
             acquisition of GTN information technology investment.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:

            FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer
            the Department to achieve a 21st century infrastructure. (01-DoD-2)

            FY 2001 Subordinate Performance Goal 2.5: Improve DoD
            financial and information management. (01-DoD-2.5)

            Performance Measure 2.5.3: Qualitative Assessment of Reforming
            Information Technology Management. (01-DoD-2.5.3)




                                      7
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    performance improvement reform objectives and goals. This report pertains to
    achievement of the following functional area objectives and goals:

    Information Management Functional Area.
          • Objective. Provide services that satisfy customer information needs.
              Goal. Introduce new paradigms. (IM-2.4)

           •   Objective. Reform information technology management processes to
               increase efficiency and mission contribution.
               Goal. Institutionalize Clinger-Cohen Act of 1996 provisions.
               (IM-3.1)
               Goal. Institute fundamental information technology management
               reform efforts. (IM-3.2)

    Logistics Functional Area.
           • Objective. Improve strategic mobility to meet warfighter
               requirements.
               Goal. Develop a measurement plan and goals for mobility infrastructure
               and mobility process improvements by the end of FY 2001. Achieve
               those goals by the end of FY 2006. Both the plan and the goals have
               been deferred pending publication of MRS-05. (LOG 2.2)

           •   Objective. Implement Customer Wait Time as the DoD logistics metric.
               Goal. Develop the process for definition and measurement of
               Customer Wait Time by the end of FY 2001. (LOG-3.1)
               Goal. Fully implement Customer Wait Time measurement for
               100 percent of all selected segments by the end of FY 2006. (LOG-3.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    identified several high-risk areas in the DoD. This report provides coverage of
    the Information Security and DoD Systems Modernization high-risk areas.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by the Comptroller of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary. We did not use computer-processed information to
    perform this audit. We comply with Government Auditing Standards except for
    the requirement for an external quality control review. Measures have been
    taken to obtain an external quality control review.

    Contacts During the Audit. We contacted individuals and organizations within
    and outside DoD. Further details are available upon request.


                                       8
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls. The controls
    provide reasonable assurance that programs are operating as intended and to
    evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” October 23, 2000, and DoD Regulation 5000.2-R,
    “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
    Major Automated Information System (MAIS) Acquisition Programs,”
    March 15, 1996 (subsequently revised on January 4, 2001), acquisition
    managers are to apply program cost, schedule, and performance parameters to
    control objectives for implementing DoD Directive 5010.38 requirements.
    Accordingly, we limited our review to management controls directly related to
    the acquisition management and information security of the GTN and not to
    USTRANSCOM’s self-evaluation of management controls for the Defense
    Transportation System.

    Adequacy of the Management Controls. Management controls for the GTN
    information technology investment were adequate in that we identified no
    material management control weaknesses.

Prior Coverage
    During the last 5 years, no reports addressing the GTN information technology
    investment were issued.




                                       9
Appendix B. Mandatory Guidance
     The Office of Management and Budget and DoD provide managers with
     guidance for managing risk and implementing management controls for
     acquiring information technology investments and safeguarding information
     assets.


Office of Management and Budget Guidance
     Office of Management and Budget Circular No. A-130, “Management of
     Federal Information Resources,” November 30, 2000, implements numerous
     public laws and other Office of Management and Budget guidance that address
     acquisition of information technology investments and security of system stored
     information and software applications. In accordance with the Cohen-Clinger
     Act of 1996, the Circular requires that:
         • Cost benefit analyses be prepared for each system throughout its life cycle.
         • Risks be reduced by fully testing and prototyping system components
             prior to deployment, and involving users in the capital planning process.
         • Performance measures be implemented to provide timely information on
             the progress of an information technology program in terms of cost and
             capability to meet specified requirements, timeliness, and quality.

     Further, the Circular also requires management controls for safeguarding
     information assets. Those controls include:
         • the development of security plans for all systems,
         • a security control assessment by a management official before a system
            processes information, and
         • periodic security reviews to determine the effectiveness of controls.


DoD Guidance
     DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
     October 23, 2000, establishes a disciplined life-cycle management approach for
     acquiring quality products. DoD Directive 5000.1 emphasizes the need to
     recognize fiscal constraint and requires acquisition managers to work with users
     to trade off performance and schedule with available funding. Additionally,
     DoD Directive 5000.1 requires DoD Components to maximize program stability
     by developing realistic program schedules, investment plans, and affordability
     assessments.




                                        10
DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
Automated Information Systems (AISs),” March 21, 1988, provides mandatory
guidance for safeguarding classified and sensitive unclassified information. It
implements the security safeguard provisions of Office of Management and
Budget Circular A-130. It is also a reference source for DoD Instruction
5200.40, “DoD Information Technology Security Certification and
Accreditation Process (DITSCAP),” December 30, 1997.

DoD Directive 8000.1. DoD Directive 8000.1. “Defense Information
Management (IM) Program,” October 27, 1992, establishes policy and assigns
responsibilities for the collection, creation, use, dissemination, and disposition
of all data and information within DoD. In addition, DoD Directive 8000.1
defines information security, integrity and survivability as basic to DoD
missions. Also, DoD Directive 8000.1 requires a disciplined life-cycle
approach to manage information systems.

DoD Instruction 5000.2. DoD Instruction 5000.2, “Operation of the Defense
Acquisition System,” Change 1, January 4, 2001, establishes a general approach
for managing system acquisitions with best life-cycle solutions for satisfying
user requirements. DoD Instruction 5000.2 requires chief information officers
to confirm that mission-critical and -essential information systems are developed
in accordance with the Clinger-Cohen Act of 1996 before approvals are granted
for milestone advancements.

DoD Regulation 5000.2-R. Interim DoD Regulation 5000.2-R, “Mandatory
Procedures for Major Defense Acquisition Programs (MDAPs) and Major
Automated Information System (MAIS) Acquisition Programs,” January 4, 2001,
establishes life-cycle procedures for managing major acquisition programs.




                                    11
Appendix C. Report Distribution
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Business Policy
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
  Program Executive Officer, Command and Control and Combat Support Systems
Director, Office of the Administrative Assistant, Secretary of the Air Force
Auditor General, Department of the Air Force

Unified Command
Commander in Chief, U.S. Transportation Command

Other Defense Organizations
Director, Joint Staff

Non-Defense Federal Organizations
Office of Management and Budget
  Office of Information and Regulatory Affairs




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         13
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary L. Ugone
Charles M. Santoni
David M. Wyte
Stephen J. Bressi
Robert R. Johnson
Jenshel D. Marshall
Ann A. Ferrante
